No. 21-53

IN THE

SUPREME COURT OF THE UNITED STATES

JAMES DALE HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certifies that on
this 5th day of October, 2021, three copies of the Petitioner’s Reply to Brief in
Opposition, in the above-entitled case, were mailed first class, postage prepaid, to:
Office of the Attorney General
444 Seabreeze Boulevard, Fifth Floor
Daytona Beach, Florida 32118
and
Office of the Attorney General
PL01, The Capitol
Tallahassee, Florida 32399-1050

Page 1 of 2

I further certify that all parties required to be served have been served.

Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

